No. 21SUPREME COURT OF THE UNITED STATES
MICHAEL DRAKE,
Petitioner,
vs.
COMMONWEALTH OF PENNSYLVANIA
Respondent.

PROOF OF SERVICE
/AT
.,2021, as required
I, Michael Drake, do swear or declare that on this date.
by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days. The names and addresses
of those served are as follows:
Lawrence J. Goode, Esquire
Office of the District Attorney
Appeals Unit
Three South Penn Square
Philadelphia, PA 19107
I declare under penalty of perjury that the foregoing is $>ue and correct.

Date:

IVfichael Drake, LK-2454
SCI Benner Township
301 Institution Drive
Bellefonte, PA 16823

No. 21-.
SUPREME COURT OF THE UNITED STATES
MICHAEL DRAKE,
Petitioner,
vs.
COMMONWEALTH OF PENNSYLVANIA
Respondent.

i
CERTIFICATION OF MAILING

Umh /<

.,2021, that I have
I, Michael Drake, do swear or declare that on this date,
deposited the above captioned writ of certiorari and ancillary documents into the prison
mail system.
I declare under penalty of perjury that the foregoing is true and correct.

Date:

M/huM /C.W!

M/chael Drake, LK-2454
SjCI Benner Township
301 Institution Drive
Bellefonte, PA 16823

